SUPEME COURT OF THE UNITED STATES
X

AFFIDAVIT OF SERVICE

RICHARD NATOFSKY,

LAW NO.: 2014-027106

Petitioner,

DOCKET NO.: 19-732

against

THE CITY OF NEW YORK,
Respondent.

ON PETITION FOR A WRIT OF CERTTORARI TO THE
UNITED STATES COURT OF APPEALS FOR THE
SECOND CIRCUIT

X
STATE OF NEW YORK
:

SS.:

KellyAnn Perrotte-David, duly swom

1.
2.

deposes and says that:

The deponent is not a party to the action and is 18 years of age or older.

On March s'hr 2020 the deponent served the annexed Brief in Opposition upon

the following person or persons:

Michael L. Foreman
Penn State Law Civil Rights Appellate Clinic
329 lnnovation Blvd., Suite 118
University Park, PA 16802
Samuel O. Maduegbuna
Maduegbuna Cooper LLP
30 Wall Street, 8'h Floor
New York, NY 10005

J

The number of copies served on each of said persons was 3.

4

The method of service on each of said persons was:

By dispatching the paper to the person by overnight delivery service at

the

address designated by the person for that pu{pose, pursuant to CPLR 2103(bX6)..

llyAnn Per
Sworn to before me this

MOSES SAMUEL WLLIAMS
Commissioner ol Deeds
Cily of New York No.2-12722
Filed in Kings County
Certilicate
Commission
Expires Aulust 1, 2ti21

lavicl

